20-7734

NO.

IN THE
SUPREME COURT OF THE UNITED STATES

PETITIONER

IMEH U. AFFIAH
Vs

TEXAS SOUTHMOST COLLEGE; LISSA FRAUSTO: MIKE SHANNON-RESPONDENT!S)

ON PETITION FOR REHEARING TO PETITION FOR WRIT OF CERTIORARI

IMEH U. AFFIAH
10001 CLUB CREEK DRIVE, # 207

1

HOUSTON, TEXAS 77036
PHONE: (337) 962 8224

received
jul

-7 mi

received

JUN 2 2 2021

1
STATEMENT OF ISSUES AND FACTS RELEVANT TO THE ISSUES PREDENTED
One of the i ssues presented in the original petition was the Court of Appeals, 5th Circuit
missing the point by not thoroughly reviewing the briefs and summary judgement reports of
Defendants and compare them to their made-up supporting documents after the facts. The lower
courts described these made-up supporting documents as insurmountable evidence. Petitioner
has consistently indicated these documents as fabrications because they never existed and he saw
them for the first time in the summary judgement reports by Defendants. Therefore, the
immediate question for Rehearing consideration is:
Who is to be believed and who is telling the truth? Defendants or Petitioner (Plaintiff)?
The truth can be found in these documents that Defendants submitted.
(1) Therefore, Petitioner submits to you Exhibit A(h) as a typical example of tons of
similar supporting documents submitted by Defendants as evidence. There were no discoveries
conducted in this case for Defendants to defend and clarify the information they submitted to the
courts. Defendants, with their lawyers have consistently opposed to oral argument, virtual or in
person because they cannot defend their information. This piece of evidence in Exhibit A(h>
speaks volumes
Petitioner was fired and escorted from Texas Southmost college on February 22, 2017.
His office door key and lap top were taken away from him. He was locked out of the computer
system immediately and could not even check his mails with the college from another computer.
Things worthy of notice from this document that Defendant, Lissa Frausto failed to
disclose:
a. handwriting is strictly Lissa Frausto’s and no evidence in her job description that she was
responsible for unilaterally investigating any employee especially high-ranking employees.
b. issues she claimed happened in the Fall Semester and claimed to have filed the complaints
two days before she brought the letter of termination.
c. No evidence that she informed Petitioner of these despicable concerns before, after
or during presentation of termination letter.
d. No evidence that what she wrote down as complaints came directly from those individuals,
she indicated. Most of those individuals she indicated, Petitioner does not know them in person
and never worked in Petitioner’s division. Attention to made-up questioning of the individuals
involved and how she was leading these individuals to get what she wanted.

e. The lady(married) that Lissa Frausto is referring to in this Exhibit was regarded by Petitioner
as professional friend. Petitioner exchanged gifts with her during Christmas, sent gift to her
new bom baby, introduced Petitioner to her husband. She occasionally brought cooked meal
to Petitioner. Petitioner and the lady had personal and professional respect for each other.
How can Petitioner say to or make these despicable statements about her? This does not make
sense and no proof that these complaints came directly from this lady.
f. Lissa Frausto, as the Director of Human Resources at the time should have known that to
work for any government agency especially at this lady’s level, you must be a citizen. Then
how can Petitioner or anyone else threaten a citizen with immigration. (I may add in one
document, Lissa Frausto referred to Immigration as Border being used by Petitioner, which is
false). The truth does not change.
g. Lissa Frausto, Defendant was the Director of Human Resources at the time. Evidence and
records show that she was promoted to a higher ranking along with others by Mike Shannon
just before his retirement. She was promoted to Executive Director of Human Resources; her
promotion was featured in the public news. This was approximately a year after Petitioner was
fired. So, the documents with Lissa Frausto signature and title, dates and the so- called
investigations (see Exhibit A(h>) clearly indicate that they were made-up way after Petitioner
was fired. This is a clear contradiction of what Defendants indicated in the summary judgement
report that these complaints and the so-called investigations were used in determining
Petitioner’s termination of appointment.
The most important fact about this piece of evidence is that the lower courts have
consistently cited this evidence and similar pieces of evidence in their opinions without the facts.
These opinions based on false information have been published resulting in damaging effects on
Petitioner’s entire life. Petitioner understands that there were tons of these documents
Defendants submitted to the courts and their hope was that the courts will not have the time or
waste the time going through them. Defendants’ dream came through and that is “beating the
justice system” as evidenced in these wrong opinions. Now, Defendants’ attorney is bragging
that he had promised clients that this case will be dismissed without their testimonies or hearing.
Defendants did not have any document to present to the EEOC (Exhibit B(rp), which was
approximately a year after Petitioner was fired. The EEOC indicated to Petitioner that their job is
to refer a matter to the Courts. Now, it is the responsibility of the courts to do the right thing by
differentiating facts from fiction from these so-called insurmountable evidence by Defendants.
2

Defendants had no other reason(s) to terminate Petitioner’s employment other than racial bias,
discrimination and hate. Evidence has been clearly outlined in the amended complaints; briefs
submitted to the courts of Appeals 5th Circuit (already submitted in initial petition). Defendants,
out of desperation, initiated and carried out fabricated complaints, bogus and unilateral
investigations way after Petitioner was fired to cover up their racial crime.
Petitioner brought a case against Defendants. Defendants have been given opportunity to
respond. That is “due process”. Sadly, Petitioner has not been afforded due process (from
documents filed) starting from pre-courts’ filing and at the lower court (Southern District Court,
Brownsville Division). This is not justice and Petitioner pleads, hopes and prays for Rehearing
consideration by the Supreme Court. Petition for Rehearing consideration is not requested for the
intention of retrial of this case by the Supreme Court. The sincere hope is for the court to review
and take into consideration the facts presented in this petition and offer to the lower courts
opportunity to correct the points that they missed.
(2) Secondly, I refer you to Exhibit C(H) This is another document from a series of
documents that Petitioner saw for the first time and in the summary, judgement reports from
Defendants. Information from this document was cited by the lower courts. Unfortunately, the
information is false. First, the individual claims that she and her husband invited Petitioner for
dinner. Petitioner does not know her husband and have never met her husband. Petitioner never
discussed personal relationship with her except work related issues. It is disappointing that the
lower courts can believe that any human being with a sound mind will just meet someone for the
first time without knowing anything about this person and ask her that he or she was looking for
a particular person. Do all these people work for match-making companies? How did they know
that Petitioner was not in a relationship at the time? What struck Petitioner in this document are
(a) when the document was created (b) most of the information contains a common statement
“someone told her that another person complained to that someone”. Why did these individuals
go to their respective supervisors? (c) some individuals that Petitioner never interacted with and
do not know being cited as Petitioner visiting and calling them; no direct statement from those
cited except hearsay (d) why did the creator of this document wait till that time to bring up what
she claimed to have taken place months before the time? and (e) how she carefully circled what
she wanted the courts to cite and they did. These are facts to review in this document especially
the falsified time they indicate in the document.
(3) Finally, I refer you to Exhibit D(h>. Some of the information cited by the lower courts in
these documents was seen for the first time in the summary judgement reports by Defendants.
These documents contain the main theme of defense and so-called evidence by DefendantsSEXUAL HARRASSMENT. These documents contain information cited by the lower courts in
their opinions. Details of how Defendants unilaterally handled this issue and their conclusions
are outlined in APPENDIX D (EXHIBIT G THROUGH V) AND APPENDIX C
(BRIEFS)OF THE PETITION OF WRIT OF CERTIORARI.
3

Please, compare the changes in information with the information in Exhibit D(h> in this petition
for rehearing. The following facts concerning these documents in this Exhibit D(H)are worth
noting:
a. Document # 1: This is a complaint that Lissa Frausto made and claimed that it was filed
by an individual she refused to identify. Petitioner denied this occurring contrary to their
Summary judgement reports and the opinions of the lower courts that Petitioner did not refute
this taking place. When she was challenged and her supervisor notified as seen in Document # 2,
she unilaterally claimed that she completed investigations and found the complaint to have
limited merit. Her supervisor never responded.
b. When Lissa Frausto, Defendant was unsuccessful in achieving her goal of finding
Petitioner guilty of this serious and damaging sexual harassment crime, she got rid of her
attorney. She was then approached by their current attorney who promised her that he could have
the case immediately and has information that could enable him to do so. That is how and when
Documents # 3 and # 4 came into the records. This contradicts Unfortunately, Lissa Frausto
never mentioned to her prospective attorney that she was unsuccessful in her initial complaints.
The prospective attorney never told Defendants that he had filed several motions preventing the
individuals he used in these #3 and # 4 Documents to be deposed or crossed examined by
Petitioner’ attorney.
c. The dates on these documents confirm Petitioner argument that these documents were
fabricated after the facts (employment termination) and contradict Defendants assertion that this
information was used to determine non- renewal of Petitioner contract (see Document # 5
paragraph 10 from Defendants’ summary judgment reports). The information in these
documents also confirms that the lower courts relied on the summary judgement report and never
reviewed the inconsistencies in the supporting documents referred to as insurmountable evidence
from Defendants. This is evidence in the citations from these new documents by the lower courts
which are different from these supporting documents but similar to summary judgement report.
There is no proof that these documents were actually created by these individuals since no one
from Petitioner’s side heard from these individuals directly.
d. Defendants also contradicted themselves in the summary judgement reports. (See Document #
6, paragraph 11). In Defendants’ fabricated, supporting documents referred to by the lower
courts as insurmountable evidence, Defendants indicated to these complaints being filed. As can
be seen in this part of their summary judgement reports indicated, they contradict themselves that
the complaint(s) was/were not filed. These are documents that Petitioner saw for the first time
and never existed before or months after Petitioner was fired. Unfortunately, the damaging
information in these documents were the focus of citation by the lower courts in their opinions.
e. Finally, these # 3 and # 4 documents were submitted to the State Court as a part of defense to
defamation suit by Defendant as indicated. The dates indicate that this case was filed and tried
4

after Petitioner was fired. These documents were indicated as irrelevant and the Judge refused to
review the documents and did not consider ant cross examinations of the individuals and
Defendant in the case. No proof that these individuals actually created these documents to aid the
indicated Defendant. The Judge cited ANTI-SLAP and dismiss the case. Very important note to
consider, the attorney to Defendant argued that whether the information provided by his client
was true or not, that Texas Southmost College and those concerned should be sued instead of his
client. Yes, that attorney is Defendants’ attorney in this case.
Petitioner has tried his best to identify with documentation some of key issues in this case
that resulted in the wrong opinions by the lower courts. Petitioner understands the inconvenience
his petition poses to this court in light of the fact that his incapable or retaining a legal counsel to
present this case properly. The pieces of evidence and explanations presented above depict how
tons of false information presented by Defendants led to erroneous opinions by the lower courts.
The consequences of these erroneous opinions and their publications have led to complete
destruction of Petitioner livelihood beyond repair. Publication of the courts’ opinions have made
very difficult if not impossible for Petitioner to get any employment despite several attempts.
Petitioner is relying of retirement accounts funds and credit cards for survival now. Petitioner is
in serious debt and he takes early retirement now, he will not have enough money for rent.
Petitioner’s lack of employment has also affected charitable organizations he signed up and has
supported for over twenty years.
CONCLUSION
Despite lack of legal representation, Petitioner pleads, hopes and prays that the court will
consider rehearing with the information filed with the courts so far. The main plea by Petitioner
is that the court will review the documents and confirm the facts and issues that the lower courts
missed. Hopefully, this information can be forwarded to the lower courts for their review and
corrections.
CERTIFICATE OF COMPLIANCE AND DECLARATION
I, Imeh U. Affiah swear and declare to the best of my
knowledge to be in compliance with the rules set forth by the Supreme Court of the United States in
filing this petition. I am in compliance in the number of words (specifically 2311 words) allowable for
this type of petition.
Petitioner has stated his grounds for rehearing and certifies that these grounds are
limited to intervening circumstances of substantial or controlling effect or to other substantial
grounds not previously presented.
Most importantly, this petition is presented to the court in a timely manner for
consideration in good faith and not for delay.
Respectfully,
5

IMEH U. AFFIAH
10001 CLUB CREEK DRIVE, # 207
HOUSTON, TEXAS 77036
PHONE: (337) 962 8224

6

